Audit Report




OIG-10-040
SAFETY AND SOUNDNESS: Material Loss Review of Peoples
Community Bank
May 27, 2010




Office of
Inspector General
Department of the Treasury
    This page intentionally left blank.
 
Contents



Memorandum for the Acting Director


Section I   Mayer Hoffman McCann P.C.’s Report on the Material Loss
            Review of Peoples Community Bank


Section II Prior Office of Inspector General Material Loss Review
           Recommendations


Section III Report Distribution
This page intentionally left blank.
                                          DEPARTMENT OF THE TREASURY
                                                W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GE NE RAL
                                                   May 27, 2010




             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR

             FROM:                     Susan Barron /s/
                                       Director, Banking Audits

             SUBJECT:                  Material Loss Review of Peoples Community Bank


             INTRODUCTION

             The Office of Thrift Supervision (OTS) closed Peoples Community Bank (PCB),
             West Chester, Ohio, and appointed the Federal Deposit Insurance Corporation
             (FDIC) as receiver on July 31, 2009. As of April 16, 2010, FDIC estimated that
             PCB’s loss to the Deposit Insurance Fund was $136 million.

             Under section 38(k) of the Federal Deposit Insurance Act, we are responsible for
             conducting a material loss review of the failure of PCB. To help fulfill this
             responsibility, we contracted with Mayer Hoffman McCann P.C. (MHM), an
             independent certified public accounting firm. MHM’s report dated May 26, 2010, is
             provided as Section I.

             RESULTS OF MATERIAL LOSS REVIEW

             We concur with MHM’s report that indicated:

                  •   PCB failed primarily because of large concentrations in higher risk commercial
                      real estate loans that resulted in large loan losses that led to the thrift having
                      insufficient capital. While pursuing aggressive growth, PCB’s board and
                      management did not establish adequate risk management systems to
                      properly monitor and manage elevated risks in its loan portfolio. As a result,
                      when the real estate market began deteriorating in 2006, PCB was exposed
                      to rapid asset quality deterioration and corresponding losses that ultimately
                      led to the thrift’s demise.

                  •   OTS’s supervisory actions complied with its guidance available at the time.
                      However, the aggregate limit for higher risk loans in place from 2004
                      through 2006 was at a level that was too high to effectively reduce PCB’s
Page 2

       risk profile to a manageable level. There was little examination guidance
       available during this time frame to assist the examiners in their evaluation of
       the effectiveness of the limits set by PCB, which were proven to be
       excessive. As a result, OTS’s supervision of PCB did not prevent a material
       loss to the Deposit Insurance Fund. An OTS internal failed bank review
       concluded that (1) supervision of the thrift could have been improved in the
       area of concentration limitations; (2) although underwriting, administration,
       and monitoring systems did improve between 2000 and 2004, the thrift
       continued to originate aggressively underwritten loans that placed a heavy
       reliance on continued strong collateral valuations in a concentrated segment
       of the market; and (3) the timing and nature of enforcement actions were
       generally considered to be effective. The material loss review affirmed OTS’s
       first two findings.

Details of MHM’s conclusions are in their report.

We also concur with MHM’s recommendations in the report that:

   •   OTS ensure that action is taken on the lessons learned and that the
       recommendations made from OTS’s internal review as documented in the
       Internal Failed Bank Review for PCB that was issued December 30, 2009,
       are implemented; and

   •   OTS work with its regulatory partners to determine whether to propose
       legislation and/or change regulatory guidance to establish limits or other
       controls for concentrations that pose an unacceptable safety and soundness
       risk and determine an appropriate range of examiner responses to high risk
       concentrations.

As a final note, we referred possible fraudulent activities involving two PCB loan
transactions to the Treasury Inspector General Office of Investigations.

Please be advised that in accordance with Treasury Directive 40-03, “Treasury
Audit Resolution, Follow-up, and Closure,” OTS is responsible for taking corrective
action on these recommendations. OTS should also record the recommendations
and related actions in the Department of the Treasury’s Joint Audit Management
Enterprise System.

We are providing, as Section II, a listing of recommendations made as a result of
completed material loss reviews of OTS-regulated institutions during the current
economic crisis. Section III identifies the recipients of this report.
Page 3

OBJECTIVES, SCOPE, AND METHODOLOGY

Under section 38 (k), we are responsible to prepare a report to OTS that
(1) ascertains why PCB’s problems resulted in a material loss to the Deposit
Insurance Fund; (2) reviews OTS’s supervision of the institution, including its
implementation of the prompt corrective action provisions of section 38(k); and
(3) makes recommendations for preventing any such loss in the future. Section
38(k) defines a loss as material if it exceeds the greater of $25 million or 2 percent
of the institution’s total assets.

To help fulfill this responsibility, we contracted with MHM to perform a material
loss review in accordance with generally accepted government auditing standards.
We evaluated the nature, extent, and timing of the work; monitored progress
throughout the audit; reviewed the documentation of MHM; met with partners and
staff members; evaluated the key judgments; met with OTS officials; performed
independent tests of OTS supervisory records; and performed other procedures we
deemed appropriate in the circumstances. We conducted our work in accordance
with generally accepted government auditing standards.

Should you wish to discuss the report, you may contact me at (202) 927-5776.
This page intentionally left blank.
                  Section I

 Mayer Hoffman McCann P.C.’s Report on the
Material Loss Review of Peoples Community Bank
This page intentionally left blank.
        Peoples Community Bank
          Material Loss Review
Safety and Soundness Performance Audit
              May 26, 2010
Contents
Mayer Hoffman McCann P.C. Audit Report                                       1

Results in Brief                                                             2

Causes of PCB’s Failure:                                                     4
     Aggressive Growth                                                       4
     PCB’s CRE Concentrations Were High Risk                                 5
     Ineffective Controls Over CRE Concentrations                            7
     Inadequate Capital Levels                                               8
     Effect of Real Estate Downturn                                         10

OTS’s Supervision of PCB                                                    10
      Supervisory History                                                   11
      Aggregate Limit for Higher Risk Loans Proved to be Ineffective        13
      PCA Was Taken by OTS as PCB’s Capital Levels Fell                     16
      OTS’s Internal Failed Bank Review Identified Key Lessons Learned      17

Recommendations                                                             20

Appendices
Appendix 1: Objectives, Scope, and Methodology                              22
Appendix 2: Background                                                      24
Appendix 3: Glossary                                                        27
Appendix 4: Chronology of Significant Events                                32
Appendix 5: OTS Examinations and Enforcement Actions                        35
Appendix 6: Management Comments                                             39

Abbreviations
ADC            Acquisition, Development, and Construction
ALLL           Allowance for Loan and Lease Losses
C&D            Cease and Desist Order
CEO            Chief Executive Officer
CRE            Commercial Real Estate
FDIC           Federal Deposit Insurance Corporation
LTV            Loan-To-Value
MOU            Memorandum of Understanding
MRBA           Matters Requiring Board Attention
OIG            Office of Inspector General
OTS            Office of Thrift Supervision
PCA            Prompt Corrective Action
PCB            Peoples Community Bank
ROE            Report of Examination
TFR            Thrift Financial Report




Material Loss Review of Peoples Community Bank                     Page i
Inspector General
Department of the Treasury

RE: Transmittal of Results for the Material Loss Review Report for Peoples
Community Bank, West Chester, Ohio.

This letter is to acknowledge delivery of our performance audit report of the
Material Loss Review for Peoples Community Bank (PCB). The objectives of this
performance audit were to: (1) determine the causes of PCB’s failure and
resulting material loss to the Deposit Insurance Fund and (2) evaluate the Office
of Thrift Supervision’s supervision of PCB, including the implementation of the
Prompt Corrective Action (PCA) provisions of section 38.

The performance audit results are in the accompanying performance audit report.
The information included in this report was obtained during our fieldwork, which
occurred during the period from October 8, 2009 through December 23, 2009.

We conducted our performance audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

We also included several appendices to this report. Appendix 1 contains a more
detailed description of our material loss review objectives, scope, and
methodology. Appendix 2 contains background information on PCB’s history and
OTS’s supervision process. Appendix 3 provides a glossary of terms used in this
report. The terms defined in the glossary are underlined the first time they are
used in the report. Appendix 4 contains a chronology of significant events
related to PCB’s history and OTS’s supervision. Appendix 5 shows examinations
of PCB by OTS from 2003 through 2009. Appendix 6 provides OTS’s comments
regarding the report’s recommendations.

Leawood, Kansas
May 26, 2010




Material Loss Review of Peoples Community Bank                        Page 1
Results in Brief
                       Peoples Community Bank (PCB or thrift) failed primarily
                       because of large concentrations in higher risk commercial
                       real estate (CRE) loans, such as one-to-four family non-
                       owner occupied, construction and land development,
                       unsecured lines of credit, and high loan-to-value (LTV) loans
                       that resulted in large loan losses that led to the thrift having
                       insufficient capital. PCB pursued an aggressive growth
                       strategy, with a focus on higher risk loans. As a result of
                       acquiring three thrifts and one bank as well as growth from
                       existing operations, PCB grew from $416 million in total
                       assets in 2001 to over $1 billion in total assets in 2005.
                       While pursuing aggressive growth, PCB’s board and
                       management did not establish adequate risk management
                       systems to properly monitor and manage elevated risks in its
                       loan portfolio. As a result, when the real estate market
                       began deteriorating in 2006, PCB was exposed to rapid
                       asset quality deterioration and corresponding losses that
                       ultimately led to the thrift’s demise.

                       The Office of Thrift Supervision (OTS) recognized risks
                       associated with the thrift’s higher risk lending strategy early.
                       Examiners noted in the April 2003, June 2004, and May
                       2005 examinations the higher risk loan portfolio and
                       concentration risks and directed PCB to establish an
                       aggregate limit for higher risk loans. During the July 2006
                       examination, OTS recommended certain corrective actions
                       through Matters Requiring Board Attention (MRBA) to
                       address concerns with PCB’s deterioration in asset quality
                       resulting from its high exposure to a declining real estate
                       economy. As a result of rapid deterioration of asset quality
                       during 2006, OTS downgraded PCB in November 2006 from
                       a composite CAMELS rating of 2 to 3. OTS initiated
                       enforcement actions on March 31, 2007, when it issued a
                       Memorandum of Understanding (MOU) followed by a cease
                       and desist (C&D) order on April 2, 2008. We concluded that
                       OTS was monitoring concentrations in higher risk loans
                       consistent with existing examination guidance and issuing
                       corrective actions as asset quality deteriorated. However,
                       the aggregate limit for higher risk loans in place from 2004
                       through 2006 was at a level that was too high to effectively
                       reduce PCB’s risk profile to a manageable level. There was
                       little examination guidance available during this time frame
                       to assist the examiners in their evaluation of the


Material Loss Review of Peoples Community Bank                              Page 2
                        effectiveness of the limits set by PCB, which were proven to
                        be excessive. As a result, OTS’s supervision of PCB did not
                        prevent a material loss to the Deposit Insurance Fund.

                        In 2008, once PCB’s capital level dropped below well-
                        capitalized,1 OTS appropriately used its authority under
                        prompt corrective action (PCA). Specifically, on November
                        12, 2008, OTS sent a PCA notice to the board informing it
                        that its capital level had declined to adequately capitalized.
                        In 2009, once PCB’s capital level dropped to significantly
                        undercapitalized, a second PCA notice was sent to the
                        board on April 14, 2009 requiring the submission of a capital
                        restoration plan by April 30, 2009.

                        OTS conducted an internal failed bank review of PCB in
                        accordance with OTS policy. The internal review found that
                        PCB’s failure primarily resulted from high levels of problem
                        assets that steadily eroded capital. OTS’s review concluded
                        that (1) supervision of the thrift could have been improved in
                        the area of concentration limitations; (2) although
                        underwriting, administration, and monitoring systems did
                        improve between 2000 and 2004, the thrift continued to
                        originate aggressively underwritten loans that placed a
                        heavy reliance on continued strong collateral valuations in a
                        concentrated segment of the market; and (3) the timing and
                        nature of enforcement actions were generally considered to
                        be effective. Our material loss review affirmed OTS’s first
                        two findings. We also agree that the OTS’s supervisory
                        actions complied with its guidance available at the time,
                        however; its supervision did not prevent the thrift’s failure.

                        The Treasury OIG has reported on excessive concentrations
                        in higher risk real estate loans and a lack of strong
                        supervisory responses in a number of their material loss
                        reviews during the current crisis. OTS issued guidance to
                        thrifts in July 2009 regarding asset and liability
                        concentrations and related risk management practices. The
                        guidance reemphasizes important risk management
                        practices and encourages financial institutions to revisit
                        existing concentration policies in light of the current
                        economic environment. While we believe the guidance is
                        better than what had been available to thrifts previously, it is

1
  12 U.S.C. § 1831o establishes a tiered framework that classifies institutions’ capital levels. An
Institution’s Total Risk-Based Capital Ratio must be higher than 10 percent to be considered well-
capitalized. PCB reported a Total Risk-Based Capital ratio of 8.71 percent on November 7, 2008
when it amended its TFR report. Refer to Table 1 for a history of PCB’s regulatory capital levels.


Material Loss Review of Peoples Community Bank                                        Page 3
                       too soon to tell at this point whether the guidance will be
                       effective at controlling risky concentrations going forward.
                       Furthermore, there has been no recent update to examiner
                       procedures that would identify a trigger point where
                       concentrations are excessive from a safety and soundness
                       perspective nor provide examiners a range of responses to
                       address excessive concentrations. This is an area we
                       believe requires continued OTS management action.

                       We are recommending: 1) OTS ensure that action is taken
                       on the lessons learned and that the recommendations made
                       from OTS’s internal review as documented in the Internal
                       Failed Bank Review for PCB’s that was issued December
                       30, 2009 are implemented; and 2) OTS work with its
                       regulatory partners to determine whether to propose
                       legislation and/or change regulatory guidance to establish
                       limits or other controls for concentrations that pose an
                       unacceptable safety and soundness risk and determine an
                       appropriate range of examiner response to high risk
                       concentrations.

Causes of PCB’s Failure

                       While pursuing aggressive growth, PCB’s board and
                       management did not establish adequate risk management
                       systems to properly monitor and manage elevated risks in its
                       loan portfolio. Policies in place for LTV and minimum debt
                       service coverage ratios were often ignored as PCB’s
                       management routinely approved loans as exceptions to
                       PCB’s lending standards.

                       Aggressive Growth

                       PCB had an aggressive growth strategy that focused on two
                       drivers. The first driver was PCB’s acquisitions during 2003
                       through 2006 of $340 million of assets through the purchase
                       of three thrifts and one bank branch in the southern Ohio
                       and southeast Indiana markets. The second driver was
                       PCB’s focus on growing its existing asset base by
                       generating higher risk loans such as one-to-four family non-
                       owner occupied mortgage loans, construction and land
                       development loans, and unsecured commercial and
                       consumer lines of credit. As illustrated in Figure 1, much of
                       the thrift’s growth occurred in 2005 through the first half of
                       2006 through the acquisition of two thrifts.



Material Loss Review of Peoples Community Bank                            Page 4
                      Figure 1. Growth in Assets (in millions)

                                                   Assets Growth by Type
                         $1,200
                         $1,000

                           $800
                           $600

                           $400

                           $200
                            $0
                                  2002      2003     2004      2005      2006      2007       2008
                                                               Years

                                  CRE Loans One- to Four-Family All Other Loans All Other Assets

               Source: Analysis from the Federal Deposit Insurance Corporation (FDIC) Statistics on
               Depository Institutions

                       Starting in mid-2006, PCB management, responding to
                       examination concerns raised by OTS as well as declining
                       economic conditions, altered its growth strategy and sought
                       to decrease its asset base in order to preserve capital and
                       reduce its real-estate concentrations. The thrift’s efforts to
                       shrink its balance sheet by selling existing loans and slowing
                       the origination of riskier loans were ultimately insufficient to
                       prevent its failure.

                       PCB’s CRE Concentrations Were High Risk

                       In December 2006, OTS issued “Concentrations in
                       Commercial Real Estate Lending, Sound Risk Management
                       Practices,”2 to clarify to its examiners that institutions actively
                       engaged in CRE lending should (1) assess their
                       concentration risk and (2) implement appropriate risk
                       management policies to identify, monitor, manage, and
                       control their concentration risks. The 2006 CRE guidance
                       set forth two benchmarks for identifying institutions with CRE


2
  In December 2006, OTS issued guidance entitled, “Concentrations in Commercial Real Estate
Lending, Sound Management Practices,” which set forth benchmarks for identifying CRE loan
concentrations. One of the benchmarks was defined as commercial real estate loans that
represent 300 percent or more of total capital.


Material Loss Review of Peoples Community Bank                                                       Page 5
                        loan concentrations that may warrant greater supervisory
                        scrutiny. Such institutions are those for which:

                         • Loans for construction, land development, and other land
                         exceed 100 percent of total capital; or

                         • Total CRE loans exceed 300 percent of total capital.

                        PCB primarily achieved loan growth through originations of
                        real-estate loans in the Cincinnati area, including
                        construction and land development loans and one-to-four
                        family residences that were not occupied (non-owner
                        occupied). The growth in real estate loans lead to significant
                        levels of CRE concentration risk. At June 30, 2006, the
                        thrift’s concentration of construction and land development
                        loans was 217 percent of capital while its total CRE loan
                        portfolio (construction, land development, and other real
                        estate loans secured by multifamily and non-owner occupied
                        property) was 457 percent of capital.

                        As shown in figure 2, the thrift experienced high levels of
                        non-performing loans compared to its peers3.

         Figure 2. PCB’s Delinquent and Non-Accrual Loans to Total Assets
                                  Delinquent and Non-Accrual Loans to Total Assets

          7%                                                                  6.5%

          6%

          5%

          4%                                              3.4%      3.2%              PCB

          3%                                                                          Peer Group
                                                2.0%
          2%                          1.6%
                1.3%      1.3%

          1%

          0%
                2002       2003       2004      2005      2006      2007       2008

            Source: FDIC Statistics on Depository Institutions




3
 For purposes of Figure 2, Peer Group consists of similar sized institutions located in the
Chicago FDIC supervisory region with assets ranging from $400 million to $1 billion.


Material Loss Review of Peoples Community Bank                                        Page 6
                       The thrift’s ratio of delinquent and non-accrual loans to total
                       assets exceeded its peer group – a further indication that
                       PCB’s concentration in higher-risk loans was adversely
                       affecting its levels of non-performing loans.

                       Ineffective Controls Over CRE Concentrations

                       The 2006 CRE guidance describes risk management
                       practices an institution is expected to have in place to pursue
                       CRE lending in a safe and sound manner.                   When
                       concentrations in CRE exist, sound credit risk management
                       systems and maintenance of appropriate capital levels are
                       critical. An appropriate credit risk management system in
                       such circumstances would include strong underwriting
                       standards and policies and procedures to monitor and
                       manage risks inherent in increased concentrations in real
                       estate.    According to the guidance, institutions should
                       address the following key elements in establishing a risk
                       management framework that effectively identifies, monitors,
                       and controls CRE concentration risk:

                       •   Board and management oversight
                       •   Portfolio management
                       •   Management information systems
                       •   Market analysis
                       •   Credit underwriting standards
                       •   Portfolio stress testing and sensitivity analysis
                       •   Credit risk review function

                       PCB’s board and management failed to implement the risk
                       management processes necessary to control the thrift’s
                       growth and concentration levels and to maintain adequate
                       capital levels. Examiners expressed concerns with asset
                       quality in the July 2006 report of examination (ROE) and
                       directed PCB through MRBAs to address the following:
                        • Adopt a board resolution establishing an action plan for
                        reduction of adversely classified assets,
                        • Evaluate the adequacy of the board established loan
                        portfolio diversification limits,
                        • Strengthen the underwriting standards that contribute to
                        the concentration of regulatory LTV exceptions that
                        magnify the concentration risk of Acquisition, Development
                        and Construction (ADC) loans,



Material Loss Review of Peoples Community Bank                                 Page 7
                        • Develop appropriate reports for monitoring the key risks
                        in the loan portfolio, and
                        • Evaluate the adequacy of the internally established
                        minimum Total Risk-Based Capital ratio and the adequacy
                        of the components of total capital.
                       During our review of the 2005 and 2006 board minutes, we
                       noted the following instances where the board elected to
                       allow exceptions to its own lending policies, including:
                          1) approved ADC loans with no personal guarantees,
                          2) approved ADC loans with 100 percent LTV,
                          3) approved loans that exceeded the thrift’s LTV limit,
                             and
                          4) approved loans to borrowers to finance construction
                             of speculative residential homes when the borrowers’
                             existing inventory of speculative homes already
                             exceeded the thrift’s policy limits.

                       Inadequate Capital Levels

                       PCB incurred net operating losses from 2006 through 2009.
                       Prior to 2006, the thrift was marginally profitable with less
                       return on assets when compared to peers. However,
                       declining asset quality caused capital to steadily decrease.
                       Over time, the operating losses eroded PCB’s capital until
                       eventually the thrift became critically undercapitalized. The
                       following table shows PCB’s capital ratios and the dates of
                       significant regulatory actions by OTS from December 2003
                       to June 2009.




Material Loss Review of Peoples Community Bank                           Page 8
                                           Table 1. PCB’s Capital Levels

                                                     Percent
                                       Total       Tier 1
                                       Risk-        Risk-       Tier 1
                                      Based        Based        Leverage
                 Date of              Capital      Capital     Capital Ratio      Regulatory Capital
                 Report                Ratio        Ratio                            Category1
                 12/31/2003           11.60       10.30         6.80                Well capitalized
                 12/31/2004           13.40       12.10         8.60                Well capitalized
                 12/31/2005           12.00       10.80         8.20                Well capitalized
                 12/31/2006           12.59       11.32         8.50                Well capitalized
                 12/31/2007           11.30       10.00         7.01                Well capitalized
                 3/4/2008           OTS sent notice of Troubled Condition
                 3/31/2008            11.55       10.24         7.09                Well capitalized
                 4/2/2008           OTS issued a C&D order
                 6/30/2008            12.28       10.97         7.94                Well capitalized
                 9/30/2008 (as         8.71        7.41         5.09                 Adequately
                 amended                                                             capitalized
                 11/7/2008)2
                 11/12/2008         OTS issued a PCA notice
                 12/31/2008           4.81        3.50              2.23              Significantly
                 (as amended                                                        Undercapitalized
                 4/9/2009)3
                 3/31/2009              4.15         2.82           1.81               Critically
                                                                                    Undercapitalized
                 4/14/2009          OTS issued a PCA notice
                 4/29/2009          OTS issued an amended C&D order
                 6/30/2009           1.11%       0.55%      0.37%                      Critically
                                                                                    Undercapitalized
                 Source of information: Thrift Financial Report (TFR) reports obtained from FFIEC
                 website
                       1
                         Thrifts must maintain a minimum Total Risk-Based Capital ratio of 10
                       percent, Tier 1 Risk-Based Capital Ratio of 6 percent, and Tier 1
                       Leverage Capital Ratio of 5 percent to be considered well-capitalized. A
                       November 2005 board resolution, however, committed PCB to maintain
                       a 12 percent Total Risk-Based Capital Ratio and 8 percent Tier 1 Risk-
                       Based Capital Ratio.
                       2
                         TFR amended after PCB’s independent auditor recommended that
                       held-for-sale criticized loan portfolio must be fair valued, resulting in
                       $21.6 million adjustment.
                       3
                         TFR amended as a result of independent audit adjustment to loan loss
                       provision of $21.3 million.

                       Given the thrift’s high levels of higher risk lending, OTS
                       commented in its 2005 examination that PCB should
                       maintain capital levels in excess of the statutory levels to be
                       considered well-capitalized.     The board responded in
                       November 2005 when it adopted a resolution committing the
                       thrift to maintaining Tier 1 Risk-Based Capital levels of 8



Material Loss Review of Peoples Community Bank                                             Page 9
                         percent and total Risk-Based Capital levels of 12 percent.
                         As shown in Table 1 above, by December 31, 2007, the thrift
                         was unable to maintain the capital levels required by the
                         resolution as total Risk-Based Capital was 11.3 percent
                         ($68,335,000), below the required 12 percent ($72,152,000).
                         Net operating losses attributed primarily to the provision for
                         loan losses charged to earnings was the primary reason the
                         thrift was unable to maintain the required capital levels.

                         Effect of Real Estate Downturn

                         PCB had a significant geographic concentration of real
                         estate loans in Ohio and Indiana which accounted for
                         approximately 75 percent and 14 percent respectively of the
                         thrift’s total loans outstanding at December 31, 2008. The
                         metropolitan areas of Cincinnati, Westchester, and Lebanon
                         accounted for the majority of PCB’s loans in Ohio.

                         PCB significantly increased its CRE lending in the Cincinnati
                         market just as the region began experiencing an economic
                         downturn.      The unemployment rate for metropolitan
                         Cincinnati had been lower than the national average from
                         1999 through 2005. However, by October 2006, the loss of
                         manufacturing jobs in the region increased the
                         metropolitan’s unemployment rate to 4.7 percent while the
                         national average rate was 4.4 percent.4          Since then,
                         Cincinnati’s unemployment rate has continued to increase
                         with the national average. In July 2009, when the thrift was
                         closed, Cincinnati’s metropolitan unemployment rate was
                         10.4 percent, while the U.S. average was 9.7 percent.5 The
                         region’s growing unemployment rate accentuated the real-
                         estate market decline, stressing the thrift’s loan portfolio
                         which caused an increase in criticized and non-performing
                         loans. The deterioration in loan quality led to increases in
                         the allowance for loan and lease loss (ALLL), and
                         impairment of other real estate owned which stressed net
                         income and eroded capital.
OTS’s Supervision of PCB
                         We concluded that OTS was generally following existing
                         examination guidance in its supervision of PCB. At OTS’s
                         direction PCB did establish aggregate limits on total higher
                         risk assets to manage concentrations in CRE and other

4
    Cleveland District Federal Reserve Board December 2006, “Economy in Perspective”
5
    As reported by Cincinnati Regional Chamber of Commerce


Material Loss Review of Peoples Community Bank                                    Page 10
                          higher risk loans. However, those limits were very high and
                          ineffective at reducing PCB’s risk profile to a manageable
                          level.

                          Supervisory History

                          Table 2 summarizes the results of OTS’s safety and
                          soundness examinations from ROEs starting with the 2003
                          examination cycle.6 Appendix 5 provides the details of the
                          MRBAs.

                          Table 2. Summary of OTS Examinations

    Date              Scope         CAMELS         Number        Number of          Enforcement
    Started                          Rating          of          Corrective           Actions
                                                   MRBAs          Actions
    4/07/2003      Full Scope       2/223221          12              15                 None
    6/15/2004      Full Scope       2/222221            3              4                 None
    5/16/2005      Full Scope       2/222221            8             15                 None1
    7/17/2006      Full Scope       2/232222            8             15                 None
    11/17/2006      Off-Site        3/332322          N/A            N/A              MOU Effective
                   Downgrade                                                           4/21/2007
    9/10/2007      Full Scope       3/343421            6              N/A               None
    4/07/2008       Off-Site        4/343421           N/A             N/A               None
                   Downgrade
    2/09/2009      Full Scope       5/554544             6              8             Amended C&D
                                                                                         effective
                                                                                        4/29/2009
Source: OTS ROEs
 1
   As noted earlier, PCB’s board adopted a resolution on November 10, 2005, to maintain Core
 Capital levels of 8 percent and Risk-Based Capital levels of 12 percent

                          Table 3 shows a summary of the types of comments
                          requiring management’s attention from each examination
                          during the period reviewed.




6
  OTS conducted its examinations and performed off-site monitoring of PCB in accordance with the
timeframes prescribed in OTS Examination Handbook.


Material Loss Review of Peoples Community Bank                                              Page 11
                       Table 3. Summary of MRBAs by Topic
                       Section          Comment                 2003     2004    2005    2006    2007    2009 Grand Total
                       Asset Quality    ALLL                                             1       1       1        3
                                        Classified Assets       3                        1               1        5
                                        Concentrations                                   1       2                3
                                        Internal Asset Review   1                1       1       1       1        5
                                        Stock Loans                              1                                1
                                        Underwriting            3                        1                        4

                       Capital          Business Plan                    1       1                                2
                                        Capital Adequacy        1                        1                        2

                       Compliance       Compliance                               1                       1        2

                       Earnings         Concentrations                                   1                        1

                       Liquidity        Business Plan                            1                                1
                                        Liquidity               1                3                                4

                       Management       Business Plan                                            1       2        3
                                        Compliance              1                                                 1
                                        Concentrations                                           1                1
                                        Disaster Recovery
                                        Plan                    1        1                                        2
                                        Management                       1                                        1
                                        Underwriting            1                                                 1

                       Sensitivity to   Sensitivity to Market
                       Market Risks     Risks                                            1                        1

                       Grand Total                                  12       3       8       8       6       6         43
                       Source: OTS ROEs

                       OTS recognized the significance of the economic downturn
                       on PCB late in 2006 when it downgraded the CAMELS
                       composite rating in November 2006 to 3. During the 2006
                       examination, OTS observed significant weaknesses with the
                       thrift’s asset quality, management, and earnings. In the
                       ROE, examiners expressed concerns regarding high risk
                       loan concentrations, internal loan review effectiveness, ALLL
                       adequacy and methodology, earning performance, and
                       liquidity monitoring.

                       OTS imposed one informal action and two formal actions
                       between 2007 and the thrift’s failure. A discussion of these
                       actions follows:
                       •     OTS entered into a MOU on March 21, 2007, in
                             response to the findings of the 2006 examination and
                             directed management to halt its growth, curtail non-
                             homogenous lending, reduce the thrift’s risk profile,
                             increase the ALLL, and address all MRBAs identified in
                             the examination.
                       •     OTS imposed a C&D order against PCB on April 2,
                             2008. The C&D order resulted from the onset of
                             adverse market conditions that were negatively
                             impacting PCB’s higher risk lending. The C&D order
                             required an updated asset reduction plan; a revised


Material Loss Review of Peoples Community Bank                                                            Page 12
                           business plan; a third party loan review with a lower
                           asset base from the current independent review; and the
                           submission of quarterly variance reports to OTS. The
                           C&D order further restricted dividend payments, required
                           prior notice of changes in directors and the senior
                           executive officer, employment contracts, and other
                           compensation arrangements, and restricted payment of
                           a golden parachute or prohibited indemnification.
                       •   OTS amended the C&D order with PCB on April 29,
                           2009, in response to the significant decline in capital
                           reported by PCB in an amended TFR for the quarter
                           ended December 31, 2008 filed on April 9, 2009. In that
                           TFR, PCB reported that it was significantly
                           undercapitalized. The thrift was now required to meet
                           and maintain a Tier 1 Risk-Based Capital Ratio of at
                           least 8 percent and a Total Risk-Based Capital Ratio of
                           12 percent by July 14, 2009.

                       Aggregate Limit for Higher Risk Loans Proved to be
                       Ineffective

                       As part of their examinations, OTS monitored PCB’s high
                       concentration levels in CRE and other higher risk loans. In
                       its April 2003 examination, OTS noted that PCB’s internal
                       limits for individual loan categories appeared reasonable;
                       however, the board had not established an overall aggregate
                       limit for higher risk loans. In a MBRA to the thrift, OTS
                       stated such a limitation should consider the aggregate levels
                       of higher risk loans relative to total assets as well as capital
                       levels.

                       In response, PCB’s board established an aggregate limit for
                       higher risk loans in May 2004 of 800 percent of Risk-Based
                       Capital plus excess ALLL and 75 percent of total assets.
                       Higher risk loans included in the calculation consisted of:
                       •   One-to-Four Family Non-Owner Occupied Real Estate
                       •   Multifamily Real Estate
                       •   Lots and Land – CRE
                       •   Land Development
                       •   Commercial Loans
                       •   Stock Loans
                       •   Consumer Loans
                       •   Unsecured Line of Credits




Material Loss Review of Peoples Community Bank                              Page 13
                       In the June 2004 examination, the examiners commented on
                       the previous examination recommendation and confirmed
                       that the systems and procedures for managing the higher
                       risk loan types were greatly improved and expanded
                       compared to the findings reported in the April 2003
                       examination. In the May 2005 examination, examiners
                       noted that PCB was in compliance with its aggregate
                       limitation on total higher risk assets, but made no other
                       comment on the adequacy of the limits.

                       The aggregate limit for higher risk loans set by the board did
                       not meaningfully reduce PCB’s overall risk exposure. At
                       March 31, 2005, the thrift was in compliance with its internal
                       limits, however; higher risk loans constituted 701.7 percent
                       of Risk-Based Capital plus excess ALLL – more than twice
                       the amount that 2006 guidance would eventually identify as
                       possible CRE concentration risk. The board’s internal limits
                       proved to be ineffective beginning in 2006 when local real
                       estate collateral values started to decline, reducing the
                       thrift’s asset quality to unmanageable levels.

                       In interviews with the examiners, we asked whether they had
                       assessed the adequacy of the aggregate limit for higher risk
                       loans set by PCB. The examiners responded that PCB likely
                       established the initial aggregate limit for higher risk loans
                       based on the levels in their portfolio at the time, but that OTS
                       was comfortable with the initial limits set by PCB based on
                       the low levels of classified assets and overall economic
                       conditions at the time. The examiners stated that they were
                       performing quarterly monitoring of PCB with the
                       understanding that the aggregate limits should change with
                       deterioration in asset quality or economic conditions. OTS
                       began placing more restrictions on asset concentrations
                       beginning in 2006 once classified assets began increasing.
                       Specifically, in the July 2006 examination, an MRBA directed
                       PCB to evaluate the adequacy of the board-established
                       aggregate limit on higher risk loans to reduce these limits in
                       light of the fact that further growth in the concentration of
                       higher risk assets was inappropriate given the high level of
                       problem assets. PCB management responded by
                       decreasing its asset base in order to preserve capital and
                       reduce its real-estate concentrations by selling existing loans
                       and slowing the origination of riskier loans.




Material Loss Review of Peoples Community Bank                              Page 14
                       Prior to the 2006 CRE Guidance, there was only limited
                       examination guidance available on CRE Concentrations.
                       OTS Examination Handbook Section 201, “Overview,
                       Lending Operations and Portfolio Risk Management
                       (Examination       Handbook),   June      2005,”   discusses
                       concentrations of credit. Section 201 indicates that the
                       board of directors should establish limits on and monitor the
                       thrift’s concentrations.

                       We concluded that OTS monitored concentrations in higher
                       risk loans consistent with existing examination guidance and
                       increased its corrective actions as asset quality deteriorated
                       in 2006 and additional guidance was issued with the 2006
                       CRE Guidance. The Examination Handbook that examiners
                       relied on prior to the 2006 guidance did not identify specific
                       levels of concentrations that may warrant greater
                       supervisory scrutiny, accordingly, evaluation of the
                       aggregate limit for higher risk assets set by PCB was based
                       primarily on examiner judgment. The 2006 CRE Guidance
                       helps support that the level of concentrations carried by PCB
                       were high risk, however, the Guidance does not establish
                       specific CRE lending limits beyond the statutory limit. It
                       notes that all thrifts actively engaged in CRE lending are
                       responsible for assessing and managing their CRE
                       concentration risk.

                       We concluded that the aggregate limit for higher risk loans in
                       place from 2004 through 2006 was at a level that was too
                       high to effectively reduce PCB’s risk profile to a manageable
                       level. Had additional examination guidance been available
                       from 2004 through 2006, the examiners may have taken
                       stronger action in supervising PCB and addressing the high
                       levels of concentrations.

                       The Treasury OIG has reported on excessive concentrations
                       in higher risk real estate loans and a lack of strong
                       supervisory responses in a number of their material loss
                       reviews during the current crisis. To address the need for
                       more guidance on concentration limits, OTS issued guidance
                       to thrifts in July 2009 regarding asset and liability
                       concentrations and related risk management practices.7 The
                       guidance reemphasizes important risk management
                       practices and encourages financial institutions to revisit

7
 Chief Executive Officer (CEO) Letter No. 311, Risk Management: Asset and Liability
Concentrations (July 9, 2009)


Material Loss Review of Peoples Community Bank                                        Page 15
                       existing concentration policies in light of the current
                       economic environment. The guidance informs thrifts that
                       OTS examiners will scrutinize high risk concentrations and
                       pursue appropriate corrective or enforcement action when
                       an institution does not maintain appropriate concentration
                       limits or takes excessive risks. The guidance states that OTS
                       will monitor institutions with a concentration exceeding 100
                       percent of core capital plus ALLL. While we believe the
                       guidance is better than what had been available to thrifts
                       previously, it is too soon to tell at this point whether the
                       guidance will be effective at controlling risky concentrations
                       going forward. Furthermore, there has been no recent
                       update to examiner procedures that would identify a trigger
                       point where concentrations are excessive from a safety and
                       soundness perspective nor provide examiners a range of
                       responses to address excessive concentrations.8 This is an
                       area we believe requires continued OTS management
                       action.

                       PCA Was Taken by OTS as PCB’s Capital Levels Fell

                       The purpose of PCA is to resolve the problems of insured
                       depository institutions with the least possible long-term loss
                       to the Deposit Insurance Fund.9 PCA provides federal
                       banking agencies with the authority to take certain actions
                       when an institution’s capital drops to certain levels. PCA
                       also gives regulators flexibility to discipline institutions based
                       on criteria other than capital to help reduce deposit
                       insurance losses caused by unsafe and unsound practices.
                       For example, OTS’s Enforcement Action Policy allows for
                       the imposing of more severe limitations than a thrift’s PCA
                       capital category would otherwise permit or require if it is
                       determined that the thrift is operating in an unsafe or
                       unsound condition or engaging in unsafe or unsound
                       practices.

                       We concluded that OTS appropriately used its authority
                       under PCA and took the appropriate steps timely as the
                       thrift’s capital levels fell.

                            •   On March 4, 2008, OTS sent a Troubled Condition
                                letter to the thrift after it was unable to meet and
8
  The last update to the OTS Examination Handbook pertaining to this subject was in June 2005.
That update required examiners to identify asset concentrations over 25 percent of total risk-
based capital or 2 percent of assets in ROEs.
9
  12 U.S.C. Sec. 1831o and 12 C.F.R. Sec. 6


Material Loss Review of Peoples Community Bank                                     Page 16
                                 maintain minimum capital levels pursuant to its board
                                 resolution.
                             •   On November 12, 2008, OTS issued a PCA notice to
                                 PCB’s board informing it that based on its amended
                                 September 30, 2008 TFR filed in November 2008,
                                 PCB’s Tier 1 Risk-Based Capital ratio had dropped to
                                 5.09 percent and total risk-based capital had declined
                                 to 8.71 percent. As such the thrift was considered
                                 adequately capitalized. PCB’s independent auditors
                                 informed the thrift that because of its on-going
                                 negotiations to sell a portion of its loan portfolio, it
                                 would need to move the loans to held-for-sale status
                                 and mark them to market. This prompted PCB to
                                 amend its TFR to report additional losses caused by
                                 mark-to-market accounting for its held-for-sale loan
                                 portfolio. 10
                             •   On April 14, 2009, OTS sent a PCA notice to PCB’s
                                 board      regarding    the    thrift's   significantly
                                 undercapitalized status based on its amended
                                 December 31, 2008 TFR. The TFR was amended
                                 after PCB’s independent auditors proposed an audit
                                 adjustment to increase the allowance for loan losses.
                                 The PCA notice required the submission of a capital
                                 restoration plan by April 30, 2009.      The capital
                                 restoration plan was submitted as required on April
                                 30, 2009. The plan was based solely on the strategy
                                 to sell numerous branches. OTS deemed the plan
                                 incomplete and not viable and denied the capital
                                 restoration plan.

                        OTS’s Internal Failed Bank Review Identified Key
                        Lessons Learned

                        OTS policy is to conduct an internal failed bank review. The
                        purpose of the review is to examine causes of the thrift’s
                        failure, identify lessons learned for OTS staff, and provide
                        recommendations where OTS internal guidance could be
                        strengthened based upon the review. While these reviews
                        are not independent, we believe they are useful in providing
                        OTS senior management additional insight into failures and


10
   Generally accepted accounting principles require held for sale loan portfolios to be carried at
the lower of cost or fair value. In order to reduce its exposure to CRE, the thrift was marketing
loans that had experienced credit and/or market deficiencies, therefore; it was offering the
portfolio at less than par.


Material Loss Review of Peoples Community Bank                                       Page 17
                       needed supervisory improvement outside of and before the
                       completion of statutorily required material loss reviews.

                       OTS issued its Internal Failed Bank Review report for PCB
                       on December 30, 2009.           The review found that the
                       immediate cause of PCB’s failure was caused by high levels
                       of problem assets that steadily eroded capital. From their
                       review, OTS identified the following key lessons learned.

                       1. The primary areas where the supervision of this thrift
                          could have been improved were focused in the area of
                          concentration limitations.       Examiners and regional
                          management viewed the thrift’s concentrations as risk
                          factors, but the limitations established by the thrift did not
                          meaningfully restrict the level of risk exposure.

                       2. Although underwriting, administration, and monitoring
                          systems did improve between 2000 and 2004, the thrift
                          continued to originate aggressively underwritten loans
                          that placed a heavy reliance on continued strong
                          collateral valuations in a concentrated segment of the
                          market. Effective and timely implementation of enhanced
                          risk management systems at this institution should have
                          identified the level of reliance on collateral valuations,
                          and helped shape the thrift’s strategic direction to control
                          that risk. The extent of the thrift’s use of stress testing
                          was limited to an underwriting exercise that gauged the
                          effect of a 200 basis point increase in interest rates on
                          the borrower’s debt service coverage ratios.

                       3. The timing and nature of enforcement actions were
                          generally considered to be effective, though they did not
                          prevent the failure.

                       From   their  review,        OTS      made      the    following
                       recommendations.

                          1. Excessive concentrations of risk were a major
                             contributor to the thrift’s failure. Many of the thrift’s
                             loan portfolios exposed the thrift to falling home
                             prices, and the aggregated risk of these
                             concentrations ultimately led the thrift to failure. As
                             recommended in other Failed Bank Reviews, OTS
                             examination and supervisory staff should consider
                             higher capital requirements as well as absolute
                             limitations of higher-risk lending concentrations. Such


Material Loss Review of Peoples Community Bank                               Page 18
                              concentrations must also be considered in aggregate,
                              as many concentrations will behave in similar ways in
                              a stressed market. This recommendation has been
                              made in numerous previous Failed Bank Reviews,
                              and is appropriately addressed within Chief Executive
                              Officer (CEO) Letter #311, issued on July 9, 2009.
                          2. Revise Examination Handbook Section 209 to provide
                             prescriptive guidance to examiners for sampling and
                             policy review when a high level of policy exceptions
                             are identified through institution’s tracking reports or
                             examiner loan reviews. In these cases, guidance
                             should not allow reliance on the institution’s loan
                             review function to supplement examination sample
                             coverage, and the policy review should consider that
                             policies do not reflect institution practice.
                          3. CEO Letter No. 311 should be expanded to clearly
                             convey expectations for the approach for completed
                             stress test analysis, including assessing the impact of
                             multiple simultaneous stresses and consideration of
                             possible correlations between risks.

                       Based on our review of the examination records and reports
                       and interviews with OTS staff, we affirm OTS’s internal
                       findings regarding improved supervision of concentration
                       limits and enhanced risk management systems. We also
                       agree that the OTS’s supervisory actions complied with its
                       guidance available at the time; however; its supervision did
                       not prevent the thrift’s failure. Excessive concentrations of
                       risk was clearly a major cause of failure and examiners did
                       not have clear guidance on what levels of concentrations
                       posed excessive risk. In addition, we agree that CEO Letter
                       No. 311 re-emphasizes important risk management
                       practices with respect to concentration issues, and that
                       additional guidance on stress testing would be useful. We
                       also agree that Handbook Section 209 provide prescriptive
                       guidance to examiners regarding sampling and policy review
                       when high levels of policy exceptions are identified. We are
                       also recommending that additional guidance be considered,
                       including guidance on when to impose absolute limits to
                       prevent excessive concentration.

                       As stated earlier, while we recognize that additional
                       guidance has been issued to thrifts on concentration issues
                       as in the CEO letter mentioned above, it is too soon to tell
                       whether that guidance is effective. The success of this


Material Loss Review of Peoples Community Bank                            Page 19
                       guidance to prevent or mitigate conditions that led to PCB’s
                       failure and loss to the Deposit Insurance Fund is dependent
                       on its consistent and faithful implementation by thrifts and
                       assertive regulatory intervention when unsound and unsafe
                       practices are found in both good and bad times. This is a
                       point that cannot be emphasized enough. Additionally, the
                       CEO Letter and existing examiner guidance does not
                       address at what levels concentrations are unsafe and
                       unsound.


Recommendations
                       As a result of our material loss review of PCB, we
                       recommend that OTS do the following:

                       1. Ensure that action is taken on the lessons learned and
                          that the recommendations made from OTS’s internal
                          review as documented in the Internal Failed Bank Review
                          for PCB’s that was issued December 30, 2009 are
                          implemented.

                          Management Response
                          OTS concurred with the above recommendation and
                          ensured that recommended actions from the Internal
                          Failed Bank Review of thrift are implemented in a timely
                          manner. OTS had already taken action on one of the
                          Internal Failed Bank Review’s recommendations by
                          issuing CEO Letter No. 311 “Risk Management: Asset
                          and Liability Concentrations” in July 2009, to address
                          asset and liability concentrations and related risk
                          management practices.

                          Mayer Hoffman McCann P.C. Comment
                          The implementation of the recommendation is the
                          responsibility of OTS management.

                       2. Work with its regulatory partners to determine whether to
                          propose legislation and/or change regulatory guidance to
                          establish limits or other controls for concentrations that
                          pose an unacceptable safety and soundness risk and
                          determine an appropriate range of examiner response to
                          high risk concentrations.




Material Loss Review of Peoples Community Bank                           Page 20
                          Management Response
                          OTS responded that it works with other regulators and
                          the Federal Financial Institutions Examination Council to
                          develop guidance on a variety of subjects where common
                          issues and/or concerns exist. OTS ensured that it would
                          continue to review the situation and interface with
                          regulatory partners to determine whether to propose
                          legislation or change regulatory guidance for
                          concentrations that pose an unacceptable level of risk.

                          Mayer Hoffman McCann P.C. Comment
                          The implementation of the recommendation is the
                          responsibility of OTS management.




Material Loss Review of Peoples Community Bank                          Page 21
                       Appendix 1
                       Objectives, Scope, and Methodology



                       Our objectives were to determine the causes of Peoples Community
                       Bank’s (PCB) failure and assess the thrift’s supervision by the Office of
                       Thrift Supervision (OTS). We conducted this material loss review of
                       PCB under contract with the Department of the Treasury Office of
                       Inspector General (OIG) in response to its mandate under section
                       38(k) of the Federal Deposit Insurance Act.11 This section provides
                       that if the Deposit Insurance Fund incurs a material loss with respect to
                       an insured depository institution, the inspector general for the
                       appropriate federal banking agency is to prepare a report to the
                       agency that

                       •     ascertains why the institution’s problems resulted in a material loss
                             to the insurance fund;
                       •     reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action provisions of section
                             38; and
                       •     makes recommendations for preventing any such loss in the future.

                       Section 38(k) defines a loss as material if it exceeds the greater of
                       $25 million or 2 percent of the institution’s total assets. The law also
                       requires the inspector general to complete the report within 6 months
                       after it becomes apparent that a material loss has been incurred.

                       The OIG contracted with our firm to conduct this material loss review of
                       PCB based on the loss estimate by the Federal Deposit Insurance
                       Corporation (FDIC). As of April 16, 2010, FDIC estimated that the loss
                       to the Deposit Insurance Fund from PCB’s failure would be $136
                       million.

                       To accomplish our review, we conducted fieldwork at OTS’s
                       headquarters in Washington, D.C.; it’s Central Regional Office in
                       Chicago; and PCB former headquarters in West Chester, Ohio. We
                       also interviewed officials and examiners at FDIC’s Division of
                       Supervision and Consumer Protection in Chicago, contract personnel
                       at FDIC’s Division of Resolutions and Receivership, and conducted
                       telephone interviews of OTS personnel who worked on the PCB
                       examinations and work from OTS’s field office in Cincinnati, Ohio. We
                       conducted our fieldwork from October 2009 through January 2010.

                       To assess the adequacy of OTS’s supervision of PCB, we determined
                       (1) when OTS first identified PCB’s safety and soundness problems,
                       (2) the gravity of the problems, and (3) the supervisory response OTS

11
     12 U.S.C. § 1831o(k).


Material Loss Review of Peoples Community Bank                               Page 22
                       Appendix 1
                       Objectives, Scope, and Methodology



                       took to get the thrift to correct the problems. We also assessed
                       whether OTS (1) might have discovered problems earlier; (2) identified
                       and reported all the problems; and (3) issued comprehensive, timely,
                       and effective enforcement actions that dealt with any unsafe or
                       unsound activities. Specifically, we performed the following work:

                       •   We determined that the time period relating to OTS’s supervision of
                           PCB covered by our audit would be from January 1, 2003 through
                           PCB’s failure on July 31, 2009. This period included six full-scope
                           safety and soundness examinations prior to the OTS’s April 2009
                           amended C&D.

                       •   We reviewed OTS’s supervisory files and records for PCB from
                           2003 through 2009. We analyzed examination reports, supporting
                           workpapers, and related supervisory and enforcement
                           correspondence.     We performed these analyses to gain an
                           understanding of the problems identified, the approach and
                           methodology OTS used to assess the thrift’s condition, and the
                           regulatory actions OTS used to compel thrift management to
                           address deficient conditions. We did not conduct an independent
                           or separate detailed review of the external auditors’ work or
                           associated workpapers other than those incidentally available
                           through the supervisory files.

                       •   We interviewed and discussed various aspects of the supervision of
                           PCB with OTS officials and examiners to obtain their perspectives
                           on the thrift’s condition and the scope of the examinations.

                       •   We interviewed FDIC officials who were responsible for monitoring
                           PCB for federal deposit insurance purposes.

                       •   We assessed OTS’s actions based on its internal guidance and
                           requirements of the Federal Deposit Insurance Act.12

                       We conducted this performance audit in accordance with generally
                       accepted government auditing standards. Those standards require
                       that we plan and perform the audit to obtain sufficient, appropriate
                       evidence to provide a reasonable basis for our findings and
                       conclusions based on our audit objectives. We believe that the
                       evidence obtained provides a reasonable basis for our findings and
                       conclusions based on our audit objectives.


12
     12 U.S.C. § 1811 et seq.


Material Loss Review of Peoples Community Bank                           Page 23
                        Appendix 2
                        Background



                        History of Peoples Community Bank

                        Peoples Community Bancorp, Inc. was a registered savings and loan
                        holding company which owned all the outstanding common shares of
                        Peoples Community Bank (PCB), a federally chartered savings thrift
                        founded in 1889. Peoples Community Bancorp, Inc. was formed in
                        December 1999 in connection with a mutual-to-stock conversion of
                        PCB and became a public company in 2000. From September 2001 to
                        December 2006, PCB grew total assets from $416 million to over a
                        billion dollars through acquisition and internal growth. The primary
                        acquisitions were: two branches of Americana Bank and Trust, New
                        Castle, Indiana (2003); American State Bank, Lawrenceburg, Indiana
                        (2005); Peoples Federal Savings Bank, Aurora, Indiana (2005); and
                        The Mercantile Savings Bank, Cincinnati (2006). At its largest, the
                        thrift operated 19 full-service branches in Ohio and Indiana.

                        The primary driver of PCB’s growth was the escalation in higher risk
                        lending including one to four family non-owner occupied, land
                        development, construction, unsecured lines of credit, and high Loan To
                        Value real estate loans mostly in the greater Cincinnati area.

                        Appendix 4 contains a chronology of significant events regarding PCB.

                        Types of Examinations Conducted by OTS

                        OTS conducts various types of examinations, including safety and
                        soundness, compliance, and information technology.

                        OTS must conduct full-scope examinations of insured thrifts either
                        once every 12 months or once every 18 months, depending on the size
                        of the thrift and other factors.13 During a full-scope examination,
                        examiners conduct an onsite examination and rate all CAMELS
                        components. OTS then assigns the thrift a CAMELS composite rating
                        based on its assessment of the thrift’s overall condition and OTS’s
                        level of supervisory concern.

                        Enforcement Actions Available to OTS

                        OTS performs various examinations of thrifts that result in the issuance
                        of reports of examinations identifying areas of concern. OTS uses


13
  The 18-month examination cycle applies to insured thrifts with total assets of $500 million or less and meets
certain other criteria of a well-managed and stable institution.


Material Loss Review of Peoples Community Bank                                        Page 24
                       Appendix 2
                       Background



                       informal and formal enforcement actions to address violations of laws
                       and regulations and to address unsafe and unsound practices.

                       Informal Enforcement Actions

                       When a thrift’s overall condition is sound but it is necessary to obtain
                       written commitments from its board of directors or management to
                       ensure that it will correct identified problems and weaknesses, OTS
                       may use informal enforcement actions. OTS commonly uses informal
                       enforcement actions for problems in well- or adequately capitalized
                       thrifts and for thrifts with a composite rating of 1, 2, or 3.

                       Informal enforcement actions notify a thrift’s board and management
                       that OTS has identified problems that warrant attention. A record of
                       informal enforcement action is beneficial in case formal enforcement
                       action is necessary later.

                       The effectiveness of informal enforcement action depends in part on
                       the willingness and ability of a thrift to correct deficiencies that OTS
                       notes. If a thrift violates or refuses to comply with an informal action,
                       OTS cannot enforce compliance in federal court or assess civil money
                       penalties for noncompliance. However, OTS may initiate more severe
                       enforcement actions against a noncompliant thrift.

                       Informal enforcement actions include supervisory              directives,
                       memoranda of understanding, and board resolutions.

                       Formal Enforcement Actions

                       Formal enforcement actions are enforceable under the Federal Deposit
                       Insurance Act. They are appropriate when a thrift has significant
                       problems, especially when there is a threat of harm to the thrift,
                       depositors, or the public. OTS is to use formal enforcement actions
                       when informal actions are considered inadequate, ineffective, or
                       otherwise unlikely to secure correction of safety and soundness or
                       compliance problems.

                       OTS can assess civil money penalties against thrifts and individuals for
                       noncompliance with a formal agreement or final orders. OTS can also
                       request a federal court to require a thrift to comply with an order.
                       Unlike informal actions, formal enforcement actions are public.

                       Formal enforcement actions include cease and desist orders, civil
                       money penalties, and prompt corrective action directives.


Material Loss Review of Peoples Community Bank                             Page 25
                       Appendix 2
                       Background




                       OTS Enforcement Guidelines

                       Considerations for determining whether to use informal action or formal
                       action include the following:

                       •   the extent of actual or potential damage, harm, or loss to the thrift
                           because of the action or inaction;

                       •   whether the thrift has repeated the illegal action or unsafe or
                           unsound practice;

                       •   the likelihood that the conduct will occur again;

                       •   the thrift’s record for taking corrective action in the past;

                       •   the capability, cooperation, integrity, and commitment of the thrift’s
                           management, board of directors, and ownership to correct identified
                           problems;

                       •   the effect of the illegal, unsafe, or unsound conduct on other
                           financial institutions, depositors, or the public;

                       •   the examination rating of the thrift;

                       •   whether the thrift’s condition is improving or deteriorating; and

                       •   the presence of unique circumstances.




Material Loss Review of Peoples Community Bank                                 Page 26
                                      Appendix 3
                                      Glossary


Adversely classified asset            An asset rated as substandard, doubtful, or loss.
                                      Substandard assets are inadequately protected by the
                                      current worth and paying capacity of the obligor or of the
                                      collateral pledged, if any. A doubtful asset has all the
                                      weaknesses of a substandard asset with the added
                                      characteristic that the weaknesses make collection or
                                      liquidation in full questionable and improbable. A loss
                                      asset is considered uncollectible and of such little value
                                      that continuation as a bankable asset is not warranted.

Allowance for loan and                An estimate of uncollectible amounts that is used to re-
lease losses                          duce the book value of loans and leases to the amount
                                      that is expected to be collected. It is established in
                                      recognition that some loans in the institution’s overall
                                      loan and lease portfolio will not be repaid.

Board resolution                      A document designed to address one or more specific
                                      concerns identified by the Office of Thrift Supervision and
                                      adopted by a thrift’s board of directors.

CAMELS                                An acronym for performance rating components for
                                      financial institutions: capital adequacy, asset quality,
                                      management, earnings, liquidity, and sensitivity to market
                                      risk. Numerical values range from 1 to 5, with 1 being the
                                      best rating and 5 being the worst.

Cease and desist order                A cease and desist order issued by the Office of Thrift
                                      Supervision normally requires the thrift to correct a
                                      violation of a law or regulation, or an unsafe or unsound
                                      practice. The Office of Thrift Supervision issues a cease
                                      and desist order in response to violations of federal
                                      Banking, securities, or other laws by thrifts or individuals
                                      or if it believes that an unsafe and unsound practice or
                                      violation is about to occur.

Commercial real estate loan           A loan for real property where the primary or significant
                                      source of repayment is from rental income associated
                                      with the property or the proceeds of the sale, refinancing,
                                      or permanent financing of the property. Commercial real
                                      estate loans include construction and real estate
                                      development loans, land development loans, and
                                      commercial property loans (such as for office buildings
                                      and shopping centers).




Material Loss Review of Peoples Community Bank                              Page 27
                                      Appendix 3
                                      Glossary


Concentration                         As defined by the Office of Thrift Supervision, a group of
                                      similar types of assets or liabilities that, when
                                      aggregated, exceed 25 percent of a thrift’s core capital
                                      plus allowance for loan and lease losses. Concentrations
                                      include direct, indirect, and contingent obligations or
                                      large purchases of loans from a single counterparty.

Concentration risk                    Risk in a loan portfolio that arises when a
                                      disproportionate number of an institution’s loans are
                                      concentrated in one or a small number of financial
                                      sectors, geographical areas, or borrowers.


Full-scope examination                Examination activities performed during the supervisory
                                      cycle that (1) are sufficient in scope to assign or confirm
                                      an institution’s CAMELS composite and component
                                      ratings; (2) satisfy core assessment requirements;
                                      (3) result in conclusions about an institution’s risk profile;
                                      (4) include onsite supervisory activities; and (5) generally
                                      conclude with the issuance of a report of examination.

Generally accepted                    A widely accepted set of rules, standards, and
accounting principles                 procedures for reporting financial information established
                                      by the Financial Accounting Standards Board.

Loan-to-value ratio                   A ratio for a single loan and property calculated by
                                      dividing the total loan amount at origination by the market
                                      value of the property securing the credit plus any readily
                                      marketable collateral or other acceptable collateral. In
                                      accordance with Interagency Guidelines for Real Estate
                                      Lending Policies, institutions’ internal loan-to-value limits
                                      should not exceed the legal lending limit: (1) 65 percent
                                      for raw land; (2) 75 percent for land development; (3) 80
                                      percent for commercial, multifamily, and other
                                      nonresidential loans; and (4) 85 percent for one-family to
                                      four-family residential loans. The guidelines do not
                                      specify a limit for owner-occupied one-family to four-
                                      family properties and home equity loans. However, when
                                      the loan-to-value ratio on such a loan equals or exceeds
                                      90 percent at the time of origination, the guidelines state
                                      that the institution should require mortgage insurance or
                                      readily marketable collateral.




Material Loss Review of Peoples Community Bank                                Page 28
                                      Appendix 3
                                      Glossary


Matters requiring                     A practice noted during an Office Thrift Supervision
board attention                       examination of a thrift that deviates from sound
                                      governance, internal control, and risk management
                                      principles. The matter, if not addressed, may adversely
                                      affect the thrift’s earnings or capital, risk profile, or
                                      reputation or may result in substantive noncompliance
                                      with laws or regulations, internal policies or processes,
                                      supervisory guidance, or conditions imposed in writing in
                                      connection with the approval of any application or other
                                      request by the institution. Although matters requiring
                                      board attention are not formal enforcement actions, the
                                      Office of Thrift Supervision requires that thrifts address
                                      them. A thrift’s failure to do so may result in a formal
                                      enforcement action.

Nonperforming loans                   Loans that are not earning income and for which
                                      (1) payment of principal and interest is no longer
                                      anticipated, (2) principal or interest is 90 days or more
                                      delinquent, or (3) the maturity date has passed and
                                      payment in full has not been made.

Other real estate owned               Real properties that an institution has acquired that do
                                      not constitute its institution facilities. Such properties
                                      include real estate acquired in full or partial satisfaction of
                                      a debt previously contracted and are subject to specific
                                      holding periods, disposition requirements, and appraisal
                                      requirements.

Prompt corrective action              A framework of supervisory actions for insured
                                      institutions that are not adequately capitalized. It was
                                      intended to ensure that action is taken when an institution
                                      becomes financially troubled in order to prevent a failure
                                      or minimize resulting losses. These actions become
                                      increasingly severe as an institution falls into lower
                                      capital categories. The capital categories are well-
                                      capitalized, adequately capitalized, undercapitalized,
                                      significantly     undercapitalized,      and      critically
                                      undercapitalized. (See 12 U.S.C. § 1831o.)

                                      The prompt corrective action minimum requirements are
                                      as follows:




Material Loss Review of Peoples Community Bank                                Page 29
                                      Appendix 3
                                      Glossary


                                                               Tier 1/
                                         Total                 Risk-             Tier 1/
                 Capital Category        Risk-Based            Based             Leverage
                                         10%         or and 6%         or and 5% or greater
                 Well-capitalizeda
                                         greater               greater
                 Adequately              8%          or and 4%         or and 4% or greater
                 capitalized             greater               greater           (3% for 1-rated)
                                         Less            Or    Less        or    Less than 4% (except
                 Undercapitalized
                                         than 8%               than 4%           for 1-rated)
                 Significantly           Less            Or    Less        or    Less than 3%
                 undercapitalized        than 6%               than 3%
                                         Has a ratio of tangible equity to total assets that is equal
                 Critically
                                         to or less than 2 percent. Tangible equity is defined in
                 undercapitalized
                                         12 C.F.R. § 565.2(f).
                 a
                   To be well-capitalized, a thrift also cannot be subject to a higher capital requirement
                 imposed by the Office of Thrift Supervision.

Risk-based capital                    The sum of Tier1 plus Tier 2 capital.

Special mention asset                 An asset that has potential weaknesses that deserve
                                      management's close attention. If left uncorrected, these
                                      potential weaknesses may result in deterioration of the
                                      repayment prospects for the asset or in the institution's
                                      credit position at some future date. Special mention
                                      assets are not adversely classified and do not expose an
                                      institution to sufficient risk to warrant adverse
                                      classification.

Thrift financial report               A financial report that thrifts are required to file quarterly
                                      with the Office of Thrift Supervision. The report includes
                                      detailed information about the institution's operations and
                                      financial condition and must be prepared in accordance
                                      with generally accepted accounting principles. The thrift
                                      financial report is similar to the call report required of
                                      commercial banks.

Troubled condition                    A condition in which a thrift meets any of the following
                                      criteria. (1) the Office of Thrift Supervision notifies it in
                                      writing that it has been assigned a composite CAMELS
                                      rating of 4 or 5. (2) The thrift is subject to a capital
                                      directive, a C&D order, a consent order, a formal written
                                      agreement, or a prompt corrective action directive
                                      relating to its safety and soundness or financial viability.
                                      (3) the Office of Thrift Supervision informs the thrift in
                                      writing of its troubled condition based on information
                                      available to the Office of Thrift Supervision . Such



Material Loss Review of Peoples Community Bank                                    Page 30
                                      Appendix 3
                                      Glossary


                                      information may include current financial statements and
                                      reports of examination.




Material Loss Review of Peoples Community Bank                            Page 31
                                      Appendix 4
                                      Chronology of Significant Events


Date                   Event

March 14, 1889            Peoples Community Bank (PCB) is organized as Peoples Building,
                          Loan and Savings Company, a state chartered mutual thrift.

April 7, 2003             The Office of Thrift Supervision (OTS) begins a safety and
                          soundness examination of PCB, which is completed by May 21,
                          2003. OTS deems the thrift fundamentally sound, but issues
                          several matters requiring board attention (MRBA) involving asset
                          quality, capital and liquidity.  The CAMELS composite and
                          component ratings are 2/223221.

June 15, 2004             OTS begins a safety and soundness examination of PCB, which is
                          completed by July 30, 2004.     The CAMELS composite and
                          component ratings are 2/222221.

May 16, 2005              OTS begins a safety and soundness examination of PCB, which is
                          completed by July 18, 2005. OTS deems the thrift fundamentally
                          sound, but issues several MRBAs involving asset quality, capital,
                          and liquidity. The CAMELS composite and component ratings are
                          2/222221.

June 10, 2005             PCB acquires American State Bank in Lawrenceburg, Indiana.

December 15, 2005         PCB acquires Peoples Federal Savings Bank in Aurora, Illinois.

June 9, 2006              PCB acquires The Mercantile Savings Bank in Cincinnati, Ohio.

July 17, 2006             OTS begins a safety and soundness examination of PCB, which is
                          completed by September 21, 2006.           OTS deems the thrift
                          fundamentally sound, but issues several MRBAs involving asset
                          quality, capital, earnings, and sensitivity to market risk. The
                          CAMELS composite and component ratings are 2/232222.

November 17, 2006         OTS downgraded the July 17, 2006 examination ratings from
                          2/232222 to 3/332322 based on the September 30, 2006 thrift
                          financial report (TFR) report that revealed further asset quality
                          deterioration.

March 21, 2007            Memorandum of Understanding signed between PCB and OTS
                          becomes effective, addressing reduction of higher risk lending,
                          limitations on certain lending activities, adoption of a no-growth
                          strategy, and reduction of adversely classified assets to 20 percent
                          of capital plus allowance for loan and lease losses (ALLL) by
                          September 30, 2008.


Material Loss Review of Peoples Community Bank                           Page 32
                                          Appendix 4
                                          Chronology of Significant Events



September 10, 2007           OTS begins a safety and soundness examination of PCB, which is
                             completed by December 14, 2007. OTS issues MRBAs involving
                             asset quality and management. The CAMELS composite and
                             component ratings are 3/343421.

March 4, 2008                OTS sends Notice of Troubled Condition report to PCB

April 2, 2008                Cease and Desist Order is executed requiring an updated classified
                             asset reduction plan, a revised business plan, third party loan review
                             with lower asset base than current independent review, quarterly
                             variance reports, restriction on dividends, prior notice of changes in
                             directors and senior officers, employment contracts and any other
                             compensation agreements, restrictions on golden parachute
                             payments, dividend payments, stock repurchases and debt
                             issuance.

April 7, 2008                Based on review of the amended December 31, 2007 TFR that
                             included the write off of the thrift’s deferred tax asset14 of $10.5
                             million and additional provision for ALLL of $24.5 million, OTS
                             downgrades composite rating from 3/343421 to 4/343421. Based
                             on its reported regulatory capital levels, the thrift is considered well
                             capitalized.

April 14, 2008               The Federal Deposit Insurance Corporation (FDIC) requests to
                             participate in future examinations and visits and suggests daily
                             liquidity reporting using the FDIC's format. OTS grants FDIC
                             requests for examination participation as well as daily liquidity
                             reporting.

April 15, 2008               The annual financial audit report as of December 31, 2007 includes
                             qualified independent auditors’ opinion based on the company’s
                             ability to continue as a "going concern." Auditors’ report notes that
                             the holding company may not be able to meet its commitment to pay
                             off a line of credit set to mature on June 30, 2008.

June 30, 2008                Holding company’s $17.5 million line of credit secured by 100
                             percent of the PCB stock matures. Forbearance is extended until
                             December 31, 2008 and later until January 31, 2009.

14
   Generally accepted accounting principles require thrifts to record deferred tax asset or liabilities for the tax
effects of differences between the financial statements and tax basses of assets and liabilities. Realization of
deferred tax asset is dependent upon taxable income expected to be generated within the carry forward
period available under current tax law. The portion of any deferred tax asset that is not expected to be
realized should be allowed for using a valuation allowance account


Material Loss Review of Peoples Community Bank                                            Page 33
                                      Appendix 4
                                      Chronology of Significant Events



November 7, 2008          PCB amends its September 30, 2008 TFR to report a pre-tax loss of
                          $21.6 million. As a result, the core capital ratio declined to 5.09
                          percent and Risk-Based Capital ratio to 8.71 percent. Prompt
                          corrective action (PCA) category declines to adequately capitalized.
                          OTS sends a PCA Notice on November 12, 2008. The PCA notice
                          required the submission of a capital restoration plan by April 30,
                          2009.

February 9, 2009          OTS begins a safety and soundness examination of PCB, which is
                          completed by May 28, 2009. OTS issues several MRBAs involving
                          asset quality and management. The CAMELS composite and
                          component ratings are 5/554544.

April 13, 2009            OTS notifies thrift via formal letter that it is Significantly
                          Undercapitalized. The letter requires that PCB provide a Capital
                          Restoration Plan no later than April 30, 2009 and that additional
                          capital be in place so that the thrift is adequately capitalized by June
                          15, 2009.

April 29, 2009            Amended C&D order becomes effective. The amendment adds
                          requirements that the thrift meet and maintain core capital ratio of 8
                          percent and Risk-Based Capital requirement of 12 percent by
                          July 14, 2009.     The amended C&D order also requires a
                          contingency plan to merge or self-liquidate if thrift becomes critically
                          undercapitalized.

April 30, 2009            PCB files March 31, 2009 TFR, which indicates that its capital had
                          declined to the critically undercapitalized PCA category with a core
                          capital ratio of 1.18 percent and a total Risk-Based Capital of 4.15
                          percent.

April 30, 2009            Capital Restoration Plan is submitted and is subsequently deemed
                          incomplete and not viable by OTS because the plan would have
                          resulted in the thrift selling its performing assets and leaving it with
                          only two branches, volatile liabilities, and problem loans.

May 29, 2009             OTS issues PCA Capital Directive with the consent of the board and
                         effective June 11, 2009 that provides for OTS to appoint a
                         conservator, receiver or other legal custodian if the thrift becomes
                         significantly undercapitalized or critically undercapitalized.

July 31, 2009            OTS appoints FDIC as receiver.




Material Loss Review of Peoples Community Bank                              Page 34
                                          Appendix 5
                                          OTS Examinations and Enforcement Actions


                            This appendix lists the Office of Thrift Supervision’s (OTS) full-scope
                            safety and soundness and limited examinations of Peoples Community
                            Bank (PCB), from June 2003 until the thrift’s failure in July 2009 and
                            provides information on the significant results of those examinations.
                            Generally, matters requiring board attention represent the most
                            significant items requiring corrective action found by examiners. This
                            appendix also lists the informal and formal enforcement actions taken
                            against PCB by OTS.

Date examination           CAMELS     Assets      Significant safety and soundness matters                    Enforcement or
started/Type of Exam       Rating     (in         requiring board attention cited in reports of                other actions
                                      millions)   examinations and limited examination reports
April 7, 2003              2/223221   $623.3      • Develop and implement effective strategies designed           None
                                                    to reduce adversely classified assets to no more
(Full-scope examination)                            than 20 percent of tangible capital plus the allowance
                                                    for loan and lease losses (ALLL) by December 31,
                                                    2003.
                                                  • Develop a formal strategy for reducing risk in each
                                                    classified asset relationship exceeding $500,000.
                                                  • Enhance lending policy guidance to incorporate an
                                                    aggregate limitation on higher risk lending.
                                                  • Develop a formal Internal Asset Review process
                                                    consistent with guidance contained in OTS chief
                                                    executive officer Memorandum 140, Effective
                                                    Internal Asset Review Systems.
                                                  • Enhance the Institution’s asset classification policy
                                                    and procedures.
                                                  • Formally identify and monitor high loan to value
                                                    (LTV) loans and ensure compliance with applicable
                                                    regulatory limitations on portfolio size. Also, improve
                                                    procedures for the reporting and documentation of
                                                    loans originated with little or no borrower “hard
                                                    equity.”
                                                  • Incorporate improvements into the written loan
                                                    underwriting standards and related procedures for
                                                    significant borrowers with multiple credits, unsecured
                                                    commercial lines of credit and lending to one- to
                                                    four-family investors.
                                                  • Ensure that appropriate resources are devoted
                                                    correcting concerns identified with the IAR function
                                                    and credit administration procedures.
                                                  • Periodically test the Disaster Recovery Plan and
                                                    provide for related test documentation.
                                                  • Take steps to effect the recommendations to
                                                    strengthen the anti-money laundering procedures as
                                                    discussed in the Compliance Regulatory Findings
                                                    section of this report.
                                                  • Incorporate PCB elevated risk profile and associated
                                                    need for increased capital protection into the
                                                    financial planning processes.
                                                  •  Clarify formulas for calculating liquidity ratios and
                                                    confirm that liquidity will be evaluated on a
                                                    consistent, consolidated basis.




Material Loss Review of Peoples Community Bank                                                  Page 35
                                                     Appendix 5
                                                     OTS Examinations and Enforcement Actions


August 12, 2003                                                 Field Visit disclosed that PCB has made satisfactory                   None
                                                                progress in addressing most of the credit administration
(Limited Examination –                                          issues identified at the April 7, 2003 examination. The
follow up on Matters                                            board and management still need to establish an
Requiring Attention from                                        aggregate limitation on high risk lending. The portfolio
4/7/03 Examination)                                             of non-homogeneous loans continued to grow during
                                                                the quarter ended June 30, 2003 and represented 46.5
                                                                percent of total assets at that date.

6/15/2004                     2/222221          $852           Provide OTS a revised business plan for review and                      None
                                                               approval by the Regional Director.
                                                               • Inform OTS of the date by which independent testing
(Full-scope examination)                                          of IT systems and controls will be completed.
                                                               • Provide OTS confirmation that an engagement
                                                                  agreement has been consummated with a public
                                                                  accounting firm that will perform the September 30,
                                                                  2004 independent audit.

May 16, 2005                  2/222221          $910            • Develop specific limitations/triggers to control capital      11/10/2005 Board
                                                                  leveraging and incorporate these into the written           agrees to maintain a
                                                                  business plan.                                              Core Capital levels of
(Full-scope examination)                                        • The internal loan review function is understaffed. At       8 percent and a Risk-
                                                                  least one additional employee needs to be added to          Based-Capital capital
                                                                  this function immediately. In addition, the board            level of 12 percent
                                                                  must ensure that the internal loan review function is
                                                                  adequately staffed, at all times, so that loan reviews
                                                                  are completed within the timeframes required by the
                                                                  board policy.
                                                                • Secure documentation to show whether any stocks
                                                                  were margin stocks prior to the date of PCB’s’ legally
                                                                  binding commitment to extend credit. Identify any
                                                                  loans secured by margin stocks that exceeded the
                                                                  maximum allowable loan to value ratio of 50 percent
                                                                  and bring them into compliance at the first
                                                                  opportunity.
                                                                • Projections in the business plan for liquidity levels
                                                                  that are below board established minimums. The
                                                                  projections must be revised and increased to show
                                                                  liquidity levels above the minimums required by the
                                                                  board policy.
                                                                • Amend the Liquidity section of the Interest Rate Risk
                                                                  Policy Statement to clarify the types of borrowing
                                                                  capacity the board considers acceptable in its
                                                                  calculation of available liquidity. Borrowing at the
                                                                  Federal Reserve discount window cannot be
                                                                  considered for “available” liquidity.
                                                                • The board should document the specific operational
                                                                  criteria that were used to determine the minimum “on
                                                                  hand” and “available” liquidity levels as established
                                                                  in the Interest Rate Risk Policy Statement.
                                                                • “On hand” and “available” liquidity levels should be
                                                                  calculated daily. The monthly average of the daily
                                                                  balances should be calculated to determine that the
                                                                  “on hand” and “available” liquidity levels are being
                                                                  kept above board established minimums.
                                                                • The board should require frequent self-assessments
                                                                                                      15
                                                                  of compliance with Regulation E until all corrective
                                                                  actions are fully implemented and no violations are
                                                                  identified for a sustained period of time. The self-
                                                                  assessments should also include testing to confirm
                                                                  that no preauthorized transfers from passbook
                                                                  accounts recur.


15
    Regulation E provides a basic framework that establishes the rights, liabilities, and responsibilities of participants in electronic fund
transfer systems.



Material Loss Review of Peoples Community Bank                                                                  Page 36
                                              Appendix 5
                                              OTS Examinations and Enforcement Actions



July 17, 2006             2/232222   $1,100        • Adopt a board resolution establishing an action plan for      • 11/17/2006
                                                     the reduction of adversely classified assets to 20              downgraded
                                                     percent or less of core capital plus general valuation          CAMELs
(Full-scope                                          allowances by December 31, 2007.                                composite to 3
examination)                                       • Evaluate the adequacy of the board established loan             based on
                                                     portfolio diversification limits. A reduction in these          9/30/2006 thrift
                                                     limits must be considered in light of the fact that further     financial report
                                                     growth in the concentration of higher risk assets is          • 3/21/2007
                                                     inappropriate given the high level of problem assets.           Memorandum of
                                                   • Strengthen the underwriting standards that contribute           Understanding
                                                     to the concentration of regulatory loan-to-value                signed
                                                     exceptions and that magnify the concentration risk of
                                                     acquisition, development, and construction loans.
                                                   • Develop appropriate reports for monitoring the key
                                                     risks of the loan portfolio, including, but not necessarily
                                                     limited to, the risks identified with respect to unsecured
                                                     lines of credit (ULOCs); debt-service-coverage and
                                                     debt-to-income ratio exceptions; loan extension and
                                                     renewal history; and, the mix of contract versus market
                                                     and model construction loans.
                                                  • Refine and update the Bank’s ALLL methodology to
                                                      comply with generally accepted accounting principles.
                                                  • Evaluate the adequacy of the internally established
                                                      minimum total (risk-based) capital ratio (now 12
                                                      percent) and the adequacy of the components of total
                                                      capital, especially the ALLL. Further deterioration in
                                                      asset quality should be met by the enhancement of
                                                      risk buffers. The evaluation should be done at least
                                                      every six months and made part of the board minutes
                                                  • Review the business plans and projections as
                                                      approved by OTS (present plan) and provide OTS
                                                      revised projections, along with an explanation of any
                                                      material changes from the present plan. Revised
                                                      projections should incorporate the reduction in high
                                                      risk loan concentration limits, as discussed on the
                                                      preceding page in the second action requirement.
                                                      Lastly, continue providing quarterly variance reports to
                                                      OTS.
                                                  • Ensure the prompt implementation and use of an
                                                      internal IRR modeling process that reliably measures
                                                      the Bank’s net portfolio value (NPV) and interest rate
                                                      sensitivity. A summary of major differences between
                                                      the interest rate risk exposure results from the internal
                                                      model and OTS NPV model should be included in
                                                      quarterly reports to the board.

April 3, 2007                                     •   Based on limited review, Earnings score lowered to 4.
(Limited Scope – to                                   All other ratings, including composite of 3, remained
review the large                                      unchanged.
increase in assets
listed for special
mention at December
31, 2006)
July 3, 2007                                      •   None
(Limited Scope - level
and trend of classified
assets, sufficiency of
ALLL, and sale of
problem loans
September 10, 2007        3/343421   $903         •   Provide an acceptable plan for significant asset quality     • CAMELS rating
                                                      risk reduction and restoration of profitability. The plan      downgraded on
(Full-scope                                           should cover a 3-year period.                                  April 7, 2008
examination)                                      •   Do not grant new loans/lines of credit for the purpose         because of write
                                                      of land acquisition or development, speculative                off of Deferred
                                                      residential construction, commercial (including multi-         Tax Asset




Material Loss Review of Peoples Community Bank                                                       Page 37
                                        Appendix 5
                                        OTS Examinations and Enforcement Actions


                                                 family) construction, or acquisition or retention of             creased capital
                                                 commercial property.                                             levels. New rating
                                            •    Continue the moratorium on non-owner occupied, one-              was 4/343421
                                                 to-four residential lending.                                   • 3/4/08 Troubled
                                            •    Reassess the risk in all loan portfolios and provide for         Institution letter
                                                 an appropriate ALLL. The resulting ALLL should be at             issued due to
                                                 the higher end of the ranges as defined in the ALLL              decrease
                                                 policy.                                                          regulatory capital
                                            •    Provide OTS a loan review report prepared by a                   levels
                                                 qualified third party acceptable to OTS. The loan              • 4/2/2008 cease
                                                 review should include all loans or loan relationships            and desist (C&D)
                                                 that equal or exceed $2 million.                                 Order executed
                                            •    Continue to provide OTS with quarterly variance                  imposing various
                                                 reports for the business plan and budget that                    operating
                                                 demonstrate compliance with Memorandum of                        restrictions
                                                 Understanding dated March 12, 2007, regarding                  • 11/12/08 Prompt
                                                 reduction of classified assets. State the reasons for            Corrective Action
                                                 any adverse variances noted and the actions being                Directive issue
                                                 contemplated to correct them.                                    requiring
                                                                                                                  submission of
                                                                                                                  capital restoration
                                                                                                                  plan.


September 19, 2009                          •    The examination concluded that the thrift was in
(limited scope – to                              compliance with the order.
determine whether
PCB was in
compliance with
amended C&D order
issued April 2009)
February 9, 2009      5/554544   $712       •    Continue to develop strategies to reduce the level of          • 6/8/09 Prompt
                                                 adversely classified and nonperforming assets.                   Corrective Action
(Full-scope                                 •    Ensure that an adequate ALLL is maintained and the               Directive Issued
examination)                                     ALLL methodology is properly implemented with                  • 4/29/09 Amended
                                                 current data.        An appropriate ALLL level and             • C&D issued
                                                 methodology is required by the Order.
                                            •    Improve the internal asset review process.
                                                 Specifically, ensure that assets are classified in
                                                 accordance with regulatory definitions for Special
                                                 Mention and Substandard assets.
                                            •    Continue efforts to resolve the thrift’s troubled
                                                 condition on an open thrift basis and keep OTS and
                                                 the Federal Deposit Insurance Corporation apprised of
                                                 related plans and progress.
                                            •    The development and implementation of strategies to
                                                 retain sufficient staff to operate the thrift in as safe and
                                                 sound manner as possible should be a priority.
                                            •    The board of directors must ensure the maintenance
                                                 of an adequate Bank Secrecy Act/Anti Money
                                                 Laundering program. Confirm that management has
                                                 developed and implemented corrective procedures
                                                 related to the deficiencies identified regarding the
                                                 timely filing of Suspicious Activity Reports and
                                                 Currency Transaction Reports. OTS will request the
                                                 board to stipulate to an amended C&D Order covering
                                                 compliance




Material Loss Review of Peoples Community Bank                                                    Page 38
                       Appendix 6
                       Management Comments



 




Material Loss Review of Peoples Community Bank   Page 39
                       Appendix 6
                       Management Comments




Material Loss Review of Peoples Community Bank   Page 40
             Section II

   Prior Office of Inspector General
Material Loss Review Recommendations
The Treasury Office of Inspector General has completed eight mandated material loss reviews of
failed thrifts since April 2008. This section provides our recommendations to the Office of Thrift
Supervision (OTS) resulting from these reviews. OTS management concurred with the
recommendations and has taken or planned corrective actions that are responsive to the
recommendations. In certain instances, the recommendations address matters that require ongoing
OTS management and examiner attention.

Report Title                                       Recommendations to OTS Director
Safety and Soundness: Material Loss Review of      Ensure that the recommendations/lessons
NetBank, FSB, OIG-08-032 (Apr. 23, 2008)           learned from OTS’s internal assessments of the
                                                   NetBank failure, as described on pages 21 and
OTS closed NetBank and appointed the Federal       28 of that report, are implemented.
Deposit Insurance Corporation (FDIC) as receiver
on September 28, 2007. At that time, FDIC          Re-emphasize to examiners that for 3-rated
estimated that NetBank’s failure would cost the    thrifts, formal enforcement action is presumed
Deposit Insurance Fund $108 million.               warranted when certain circumstances identified
                                                   in the OTS Examination Handbook are met.
                                                   Examiners are also directed to document in the
                                                   examination files the reason for not taking
                                                   formal enforcement action in those
                                                   circumstances.

                                                   Establish in policy a process to assess the
                                                   causes of thrift failures and the supervision
                                                   exercised over the institution and to take
                                                   appropriate action to address any significant
                                                   supervisory weaknesses or concerns identified.
Safety and Soundness: Material Loss Review of      Ensure that action is taken on the lessons
IndyMac Bank, FSB, OIG-09-032 (Feb. 26,            learned and recommendations from the OTS
2009)                                              internal review of the IndyMac failure.

OTS closed IndyMac on July 11, 2008, and           Caution examiners that assigning composite
named FDIC as conservator. As of                   CAMELS ratings of 1 or 2 to thrifts with high-
December 31, 2008, FDIC estimated that             risk, aggressive-growth business strategies
IndyMac’s failure would cost the Deposit           needs to be supported with compelling, verified
Insurance Fund $10.7 billion.                      mitigating factors. Such mitigating factors
                                                   should consider things such as the institution’s
                                                   corporate governance, risk management
                                                   controls, allowance for loan and lease losses
                                                   methodologies, concentration limits, funding
                                                   sources, underwriting standards, and capital
                                                   levels and whether the mitigating factors are
                                                   likely to be sustainable in the long-term. Another
                                                   important factor that should be considered is the
                                                   extent to which the thrift offers nontraditional
                                                   loan products (regardless of whether loans are
                                                   sold or retained) that have not been stress-
                                                   tested in difficult financial environments and
                                                   whether the thrift can adequately manage the
                                                   risks associated with such products. OTS should
                                                   re-examine and refine as appropriate its guidance
                                                   in this area.

                       Material Loss Review of Peoples Community Bank               Section II, Page 1
                       (OIG-10-040)
Report Title                                       Recommendations to OTS Director
Safety and Soundness: Material Loss Review of      Remind examiners of the risks associated with
Ameribank, Inc., OIG-09-036 (Apr. 7, 2009)         rapid growth in high-risk concentrations.

OTS closed Ameribank and appointed FDIC as         Remind examiners to conduct more thorough
receiver on September 19, 2008. As of              loan sampling from the portfolio if they identify a
December 31, 2008, FDIC estimated that             rapid increase in concentration.
Ameribank’s failure would cost the Deposit
Insurance Fund $33.4 million.                      Remind examiners of the examination guidance
                                                   for thrift third-party relationships, with particular
                                                   attention to the assessment of the risk the
                                                   relationship may pose to the thrift’s safety and
                                                   soundness.

                                                   Assess the need for guidance requiring risk
                                                   assessment of construction rehabilitation
                                                   account loans as an integral part of assessing
                                                   the thrift’s overall risk.

                                                   Ensure that the recommendations and the
                                                   lessons learned from OTS’s internal assessment
                                                   of the Ameribank failure are implemented.
Safety and Soundness: Material Loss Review of      Ensure that the recommendations from OTS’s
PFF Bank and Trust, OIG-09-038 (June 12,           internal assessment of the PFF failure are
2009)                                              implemented and that the lessons learned from
                                                   the assessment are taken into account going
OTS closed PFF and appointed FDIC as receiver      forward. In this regard, OTS should do the
on November 21, 2008. As of May 8, 2009,           following:
FDIC estimated that PFF’s failure would cost the
Deposit Insurance Fund $729.6 million.             •   Direct examiners to closely review and
                                                       monitor thrifts that refuse to establish
                                                       appropriate limits of concentrations that
                                                       pose significant risk and pursue corrective
                                                       action when concentration limits are not
                                                       reasonable.
                                                   •   Formally communicate the guidance in ND
                                                       Bulletin 06-14 as to OTS’s expectation that
                                                       concentration measurements and limits be
                                                       set as a percentage of capital, not just as a
                                                       percentage of total assets or loans.

                                                   •   Formally communicate the need for a sound
                                                       internal risk management system that
                                                       includes stress testing, regular periodic
                                                       monitoring, and other risk management tools
                                                       for higher-risk concentrations.




                      Material Loss Review of Peoples Community Bank                   Section II, Page 2
                      (OIG-10-040)
Report Title                                     Recommendations to OTS Director
Safety and Soundness: Material Loss Review of    Ensure that the recommendations from OTS’s
Downey Savings and Loan, FA, OIG-09-039          internal assessment of the Downey failure are
(June 15, 2009)                                  implemented and that the lessons learned from
                                                 the assessment are taken into account going
OTS closed Downey and appointed FDIC as          forward. In this regard, OTS should do the
receiver on November 21, 2008. As of May 8,      following:
2009, FDIC estimated that Downey’s failure
would cost the Deposit Insurance Fund $1.4       •   Direct examiners to closely review and
billion.                                             monitor thrifts that refuse to establish
                                                     appropriate limits of concentrations that
                                                     pose significant risk and pursue corrective
                                                     action when concentration limits are not
                                                     reasonable.
                                                 • Assess the need for more guidance for
                                                     examiners on determining materiality of
                                                     concentrations and determining appropriate
                                                     examiner response to high-risk
                                                     concentrations, including when to impose
                                                     absolute limits to prevent excessive
                                                     concentration.
                                                 • Formally communicate the need for a sound
                                                     internal risk management system that
                                                     includes stress testing, regular periodic
                                                     monitoring, and other risk management tools
                                                     for higher-risk concentrations.
                                                 • Formally communicate the guidance in ND
                                                     06-14 as to OTS’s expectation that
                                                     concentration measurements and limits be
                                                     set as a percentage of capital, not just as a
                                                     percentage of assets or loans.
Safety and Soundness: Material Loss Review of    Ensure that the recommendations from OTS’s
Suburban Federal Savings Bank, OIG-09-047        internal assessment of the Suburban failure are
(Sept. 11, 2009)                                 implemented and that the lessons learned from
                                                 the assessments are taken into account going
OTS closed Suburban and appointed FDIC as        forward.
receiver on January 30, 2009. As of August 14,
2009, FDIC estimated that Suburban’s failure     Ensure that regional offices more closely monitor
would cost the Deposit Insurance Fund $126       and scrutinize the amendments to thrift financial
million.                                         reports made by institutions for accuracy and
                                                 consider appropriate action where chronic errors
                                                 are found, including enforcement action and
                                                 assessment of civil money penalties.

                                                 Have regional offices ensure that examiners
                                                 conduct timely and adequately scoped field visits
                                                 to determine whether thrifts with repeat
                                                 problems have taken appropriate corrective
                                                 action. In the event that the field visits find that
                                                 corrective action has not been taken, examiners
                                                 should be instructed to elevate the supervisory
                                                 response, including the taking of enforcement

                     Material Loss Review of Peoples Community Bank                 Section II, Page 3
                     (OIG-10-040)
Report Title                                      Recommendations to OTS Director
                                                  action when necessary.
Safety and Soundness: Material Loss Review of     Ensure that the recommendations from OTS’s
American Sterling Bank, OIG-10-011 (November      internal review of the American Sterling Bank’s
24, 2009)                                         failure are implemented and that the lessons
                                                  learned from the review are taken into account
OTS closed American Sterling Bank and             going forward.
appointed FDIC as receiver on April 17, 2009.
As of October 31, 2009, FDIC estimated that       Remind supervisory and examination staff of the
American Sterling Bank’s failure would cost the   importance of requiring thrifts to hold capital, as
Deposit Insurance Fund $41.9 million.             required by federal banking regulations, to
                                                  mitigate their recourse exposure on sold loans.

                                                  Remind supervisory and examination staff to
                                                  properly scrutinize capital contributions made to
                                                  thrifts, especially noncash capital contributions.

                                                  Ensure supervisory and examination staff take
                                                  forceful action to mitigate losses whenever a
                                                  thrift’s line of business incurs losses that
                                                  threaten the viability of this institution.
Safety and Soundness: Material Loss Review of     Ensure that recommendations from OTS’s
First Bank of Idaho, OIG-10-036 (February 16,     internal review of the First Bank of Idaho failure
2010)                                             are implemented and that the conclusions from
                                                  the review are taken into account going forward.
OTS closed First Bank of Idaho and appointed      The recommendations are (a) examiners should
FDIC as receiver on April 24, 2009. As of         obtain the results of the most recent federal
December 31, 2009, FDIC estimated that First      home loan bank and Federal Reserve Board
Bank of Idaho’s failure would cost the Deposit    onsite loan file reviews from bank management
Insurance Fund $174.6 million.                    and assess and comment on the steps taken by
                                                  management to address documentation
                                                  exceptions provided to them, (b) OTS should
                                                  revise preliminary examination response kit
                                                  documents to request details about a thrift’s
                                                  high level of uninsured deposits, and (c)
                                                  examiners should be reminded to closely review
                                                  loans supported by interest reserves. In regards
                                                  to the review of loans supported by interest
                                                  reserves, OTS should ensure that examiners
                                                  determine whether any extensions of the loan
                                                  maturity date and use of interest reserves were
                                                  appropriate.

                                                  Ensure that examination staff sufficiently
                                                  considers a thrift’s risk profile when deciding
                                                  whether to allow a thrift to lower its internal
                                                  capital targets and when determining the thrift’s
                                                  CAMELS.




                      Material Loss Review of Peoples Community Bank                 Section II, Page 4
                      (OIG-10-040)
This page intentionally left blank.
    Section III

Report Distribution
Department of the Treasury

       Office of Strategic Planning and Performance Management
       Office of Accounting and Internal Control

Office of Thrift Supervision

       Acting Director
       Liaison Officer

Office of Management and Budget

       OIG Budget Examiner

United States Senate

   Chairman and Ranking Member
   Committee on Banking, Housing, and Urban Affairs

   Chairman and Ranking Member
   Committee on Finance

U.S. House of Representatives

       Chairman and Ranking Member
       Committee on Financial Services

Federal Deposit Insurance Corporation

       Chairman
       Inspector General

U.S. Government Accountability Office

       Acting Comptroller General of the United States




Material Loss Review of Peoples Community Bank                   Section III
(OIG-10-040)
